TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Implementing Best Practices and Additional
                 Controls Can Improve Data Center Energy
                Efficiency and the Environmental and Energy
                                  Program



                                            May 7, 2010

                              Reference Number: 2010-20-044




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                HIGHLIGHTS


IMPLEMENTING BEST PRACTICES AND                    processes to improve energy efficiency. For
ADDITIONAL CONTROLS CAN                            example, some facilities fully implemented an
IMPROVE DATA CENTER ENERGY                         Environmental Management System and/or
EFFICIENCY AND THE                                 were awarded the ENERGY STAR® designation.
                                                   In addition, the Real Estate and Facilities
ENVIRONMENTAL AND ENERGY
                                                   Management organization has a training
PROGRAM                                            program to ensure employees requiring training
                                                   have access to applicable courses and

Highlights                                         completion of the training is documented.
                                                   However, the IRS does not have policies and
Final Report issued on May 7, 2010                 procedures for improving energy efficiency in the
                                                   data centers or for implementing data center
Highlights of Reference Number: 2010-20-044        energy efficiency best practices. We estimate
to the Internal Revenue Service Chief,             that the IRS could potentially realize savings of
Agency-Wide Shared Services.                       $3,172,872 over 4 years, at 2 sites, by
                                                   implementing best practices to improve airflow
IMPACT ON TAXPAYERS                                management.
Federal agencies have been directed to             The IRS also had not developed adequate
improve their energy efficiency and reduce         policies and procedures for controlling and
greenhouse gas emissions. Internal Revenue         monitoring energy efficiency improvement
Service (IRS) management indicated the             projects.
agency’s overall energy program has
consistently met standards set forth in all        WHAT TIGTA RECOMMENDED
pertinent Executive Orders and legislative         TIGTA recommended that the Chief, Agency-
mandates. However, while data centers              Wide Shared Services, work with the Chief
typically consume more energy than other types     Technology Officer to ensure 1) policies and
of buildings, the IRS has not yet fully            procedures are established to evaluate and
implemented most data center best practices.       determine which best practices to implement,
As a result, the IRS has not maximized the         2) information technology equipment energy use
energy efficiency and use of taxpayer funds        is measured (i.e., sub-metered), 3) employee
resulting from decreased energy consumption        workstations, equipment, and furniture that are
in its data centers.                               no longer needed are removed from the data
WHY TIGTA DID THE AUDIT                            centers, 4) current and future data center space
                                                   needs are identified and plans developed to
This audit was initiated to determine whether      consolidate or reduce excess data center space,
the Real Estate and Facilities Management          and 5) energy audits (including an assessment
organization has established and implemented       of best practices) are performed at the data
an effective environmental and energy program      centers. In addition, the Chief, Agency-Wide
to ensure the improvement of data center           Shared Services, should ensure 6) a
energy efficiency.                                 governance process is established and 7) a
                                                   database of all recommendations and projects is
In January 2007, Executive Order 13423,
                                                   established.
Strengthening Federal Environmental, Energy,
and Transportation Management, was enacted         In their response to the report, IRS
to strengthen the environmental, energy, and       management agreed with all of the
transportation management of Federal               recommendations but questioned the
agencies.                                          outcome measure contained in the audit
                                                   report. The IRS plans to take many
WHAT TIGTA FOUND                                   corrective actions. After considering the
The Real Estate and Facilities Management          IRS’ comments, TIGTA maintains that the
organization has implemented programs and          outcome measure in the report is valid.
                                                DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 May 7, 2010


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Implementing Best Practices and Additional
                                 Controls Can Improve Data Center Energy Efficiency and the
                                 Environmental and Energy Program (Audit # 200920025)

 This report presents the results of our review to determine whether the Real Estate and Facilities
 Management organization has established and implemented an effective environmental and
 energy program to ensure the improvement of data center 1 energy efficiency. This review was
 included in our Fiscal Year 2009 Annual Audit Plan and addresses the major management
 challenge of Modernization of the Internal Revenue Service (IRS).
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-5894.




 1
     See Appendix VI for a glossary of terms.
                         Implementing Best Practices and Additional Controls Can
                       Improve Data Center Energy Efficiency and the Environmental
                                          and Energy Program




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Programs and Processes Have Been Implemented to Improve Facility
          Energy Efficiency .........................................................................................Page 4
          Data Center Energy Efficiency Best Practices Need to Be Implemented ....Page 5
                    Recommendation 1:........................................................Page 11

                    Recommendations 2 through 5:.........................................Page 12

          Governance Over Environmental and Energy Efficiency Projects Should
          Be Enhanced .................................................................................................Page 13
                    Recommendation 6:........................................................Page 13

                    Recommendation 7:........................................................Page 14




Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Outcome Measure ................................................................Page 20
          Appendix V – Locations of Facilities Selected to Implement an
          Environmental Management System ............................................................Page 22
          Appendix VI – Glossary of Terms................................................................Page 23
          Appendix VII – Management’s Response to the Draft Report.....................Page 25
         Implementing Best Practices and Additional Controls Can
       Improve Data Center Energy Efficiency and the Environmental
                          and Energy Program




                      Abbreviations

AWSS            Agency-Wide Shared Services
DCiE            Data Center Infrastructure Efficiency
ECC             Enterprise Computing Center
EISA            Energy Independence and Security Act
IRS             Internal Revenue Service
MITS            Modernization and Information Technology Services
REFM            Real Estate and Facilities Management
                     Implementing Best Practices and Additional Controls Can
                   Improve Data Center Energy Efficiency and the Environmental
                                      and Energy Program




                                          Background

A data center consists of computer hardware and software used for data processing (servers),
data storage (storage equipment), and communications (network equipment). Data centers also
usually contain specialized power conversion and backup equipment to maintain reliable,
high-quality power, as well as environmental control equipment to maintain the proper
temperature and humidity for the computer equipment. Most data centers are more energy
intensive than other buildings due to the high power requirements of the computer equipment
and the power and cooling infrastructure needed to support this equipment. In fact, data centers
can be more than 40 times as energy intensive as conventional office buildings, 1 meaning that
large data centers more closely resemble industrial facilities than commercial buildings with
respect to energy use.
In August 2007, the Environmental Protection Agency reported 2 that the energy used by the
nation’s servers and data centers is significant. In 2006, electricity consumed by servers and data
centers (including cooling and auxiliary infrastructure)
represented about 1.5 percent of national electricity use at          Federal agencies have been
an estimated $4.5 billion in electrical cost. This                     tasked to strengthen the
estimated level of electricity consumption is more than               environmental, energy, and
the electricity consumed by the nation’s color televisions          transportation management of
                                                                            their agencies.
and similar to the amount of electricity consumed by
approximately 5.8 million average households. Federal
servers and data centers alone account for approximately
10 percent of this electricity use, for a total electricity cost of about $450 million annually.
Based on 2006 efficiency trends, national energy consumption by servers and data centers could
nearly double by 2011, representing a $7.4 billion annual electricity cost. Forecasts indicate that
unless energy efficiency is improved beyond current trends, the Federal Government’s electricity
cost for servers and data centers could be nearly $740 million annually by 2011. These estimates
of data center energy use should be considered approximate because limited data are available on
current data center energy use, and there is significant uncertainty about the effects of future
technology trends, such as server consolidation and developments in network and storage
technologies. However, these estimates and projections illustrate the magnitude of energy use in
data centers and the need for effective energy-efficiency strategies.



1
 Greenberg et al. 2006.
2
 Report to Congress on Server and Data Center Energy Efficiency Public Law 109-431, dated August 2, 2007, U.S.
Environmental Protection Agency ENERGY STAR Program.
                                                                                                      Page 1
                      Implementing Best Practices and Additional Controls Can
                    Improve Data Center Energy Efficiency and the Environmental
                                       and Energy Program



In May 2009, a white paper report produced by the Eaton Corporation stated as much as 30 to
60 percent of the data center utility bill goes to support cooling systems, including air handlers 3
and chiller systems. Many computer room cooling systems are inefficiently deployed or not
operated under recommended conditions. Poor airflow management reduces both the efficiency
and capacity of computer room cooling equipment. Leaking floor tiles, excessive cable
openings, poorly placed overhead supplies, and inappropriately oriented rack exhausts can
reduce the usable capacity of a computer room air conditioner unit by 50 percent or more. 4
In January 2007, President George W. Bush signed Executive Order 13423 Strengthening
Federal Environmental, Energy, and Transportation Management. The purpose of this policy
was to strengthen the environmental, energy, and transportation management of Federal agencies
by “conducting their environmental, transportation, and energy-related activities under the law in
support of their respective missions in an environmentally, economically, and fiscally sound,
integrated, continuously improving, efficient, and sustainable manner.” The Executive Order
established a goal to improve energy efficiency by 3 percent annually through the end of Fiscal
Year 2015 or 30 percent by Fiscal Year 2015 compared to the Fiscal Year 2003 baseline year. A
revised Treasury Directive 75-04, Energy Management Program, was issued in December 2008
establishing the policies and assigning responsibilities for maintaining the comprehensive energy
programs within the Department of the Treasury and complying with all relevant regulations and
Executive Orders.
In October 2009, President Barack Obama signed Executive Order 13514, Federal Leadership in
Environmental, Energy, and Economic Performance, which stipulates that Federal agencies must
increase energy efficiency, reduce greenhouse gas emissions, eliminate waste, and foster
conservation and sustainability. More specifically, it mandates that agencies implement best
practices for energy-efficient management of Federal data centers and servers. While previous
Executive Orders pertaining to energy efficiency did not preclude agencies from instituting
efficiency measures at data centers, they also did not require such action.
This review was performed at the Internal Revenue Service’s (IRS) Real Estate and Facilities
Management (REFM) organization’s office in Crystal City, Virginia; the Enterprise Computing
Centers (ECC) in Memphis, Tennessee, and Martinsburg, West Virginia; and the IRS Campuses
in Austin, Texas, and Ogden, Utah, during the period June 2009 through January 2010. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit


3
 See Appendix VI for a glossary of terms.
4
 Spears, Ed, “Is your data center running out of power or cooling?” dated May 30, 2009, Eaton Corporation,
http://powerquality.eaton.com/about-us/news-events/whitepapers/data-center-power-cooling.asp.
                                                                                                         Page 2
                  Implementing Best Practices and Additional Controls Can
                Improve Data Center Energy Efficiency and the Environmental
                                   and Energy Program



objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 3
                        Implementing Best Practices and Additional Controls Can
                      Improve Data Center Energy Efficiency and the Environmental
                                         and Energy Program




                                       Results of Review

Programs and Processes Have Been Implemented to Improve Facility
Energy Efficiency

An Environmental Management System is being implemented at 11 selected
facilities 5
An Environmental Management System is a set of processes and practices that enable an
organization to increase its operating efficiency, continually improve overall environmental
performance, and better manage and reduce its environmental impacts, including those
environmental aspects related to energy and transportation functions. The IRS plans to integrate
the Environmental Management System with existing management systems used at each facility
to help achieve environmental and economic goals. An Environmental Management System is
considered fully implemented when it has been formally audited by an independent qualified
party, audit findings have been recognized by the appropriate level of management of the facility
implementing the system, and it has been declared by an agency executive to be in conformance
to requirements. Two of the facilities we reviewed (Austin Campus and ECC – Martinsburg)
have fully implemented an Environmental Management System. The ECC – Memphis and
Ogden Campus are scheduled to have their systems fully implemented by 2011 and 2010,
respectively.

Two facilities reviewed were awarded the ENERGY STAR® designation
ENERGY STAR is a joint program of the Environmental Protection Agency and the Department
of Energy to help us all save money and protect the environment through energy efficient
products and practices. An ENERGY STAR qualified facility meets strict energy performance
standards set by the Environmental Protection Agency and uses less energy, is less expensive to
operate, and causes fewer greenhouse gas emissions than its peers. To qualify for the ENERGY
STAR designation, a building or manufacturing plant must score in the top 25 percent based on
the National Energy Performance Rating System. To determine the performance of a facility, the
Environmental Protection Agency compares energy use among other, similar types of facilities on
a scale of 1-100. Buildings that achieve a score of 75 or higher may be eligible for the ENERGY
STAR designation. The rating system accounts for differences in operating conditions, regional
weather data, and other important considerations.


5
    See Appendix V for the locations of the 11 facilities selected to implement an Environmental Management System.
                                                                                                           Page 4
                  Implementing Best Practices and Additional Controls Can
                Improve Data Center Energy Efficiency and the Environmental
                                   and Energy Program



As a result of the efforts to improve energy efficiency, the Memphis Campus was awarded the
ENERGY STAR designation in 2006 through 2009 and the Austin Campus was awarded the
designation in 2005, 2007, and 2009 when it was reviewed and considered for the ENERGY
STAR designation. In addition, IRS management advised us that the Andover Campus also
received the ENERGY STAR designation in 2008 and 2009.

Employees completed required environmental and energy training
The IRS ensures employees requiring training related to the environmental and energy programs
have access to applicable courses. The IRS identified which employees needed such training and
what training courses could be completed to meet the training requirements. Completed training
is documented on certificates of completion and/or the IRS Enterprise Learning Management
System. In addition, contractors who performed Environmental Management System and
Environmental, Safety and Health audits determined employees completed the required training.
The IRS efforts in the Environmental Management System, ENERGY STAR, and employee
training areas have helped to ensure the agency complies with Executive Order 13423,
Strengthening Federal Environmental, Energy, and Transportation Management, and attains its
goals. For example, agencies were directed to:
   •   Implement environmental management systems to ensure environmental issues are
       addressed, including environmental aspects of energy and transportation functions.
   •   Improve energy efficiency of agency facilities.
   •   Establish environmental management training programs.
The IRS efforts will also ensure compliance with Treasury Directive 75-04, Energy Management
Program, which states bureaus are responsible for establishing and maintaining comprehensive
energy programs within the Department of the Treasury and complying with all relevant
regulations and Executive Orders. This includes ensuring that all appropriate personnel receive
training for implementing Executive Orders, including development of outreach programs that
include education, training, and promotion of ENERGY STAR and other energy-efficient
products for Federal purchase card users.
IRS management indicated the agency’s overall energy program has consistently met standards
set forth in all pertinent Executive Orders and legislative mandates. While the IRS’
accomplishments are notable and have improved its energy efficiency, additional actions at the
data centers to implement best practices will further improve the IRS’ energy efficiency and
enhance governance over environmental and energy efficiency projects.

Data Center Energy Efficiency Best Practices Need to Be Implemented
The Agency-Wide Shared Services (AWSS) organization, in conjunction with the Modernization
and Information Technology Services (MITS) organization, has overall responsibility to ensure
                                                                                            Page 5
                   Implementing Best Practices and Additional Controls Can
                 Improve Data Center Energy Efficiency and the Environmental
                                    and Energy Program



that the IRS is complying with Executive Orders 13423 and 13514 and applying best practices.
However, the AWSS and MITS organizations do not have a process to consider, select, and
apply best practices for improving data center energy efficiency. The AWSS organization has
identified Department of the Treasury Best Energy Practices, but these do not address energy
efficiency in the data centers, as they were developed prior to the issuance of Executive Order
13514.
We made the following observations regarding the implementation of best practices when we
visited the Austin and Ogden Campuses, ECC – Martinsburg, and ECC – Memphis. Prior to our
visit to the Austin Campus, Austin Campus building management was briefed by AWSS
organization management on the results obtained at the earlier sites visited. The Austin Campus
building management took the initiative and implemented several corrective actions. Because of
this, we cannot comment on the original state of the Austin Campus data center.

   Observations of the implementation of best practices
   •   There were gaps between floor tiles (i.e., missing tiles) allowing hot and cold air to mix
       which can overwork the computer room air conditioning units. Perforated tiles were
       placed ad hoc around the server room, many times cooling the hot aisle
       (ECC – Martinsburg, ECC – Memphis, and Ogden Campus). Austin Campus building
       management commented it moved or replaced 50 floor tiles prior to our visit.
   •   Brush grommets in the raised floor to cover floor spaces/gaps and blanking panels in the
       server racks to cover spaces in rack-mounted equipment were not used or not used
       consistently to prevent air leaks (ECC – Martinsburg, ECC – Memphis, and Ogden
       Campus). Austin Campus building management sealed air leaks in the floor prior to our
       visit. Best practices state that brush grommets or other barriers and blanking panels can
       help optimize airflow by minimizing the mixing of hot and cold air. Figure 1 provides an
       illustration of the usage of brush grommets in the raised floor and blanking panels in the
       server racks.




                                                                                            Page 6
                Implementing Best Practices and Additional Controls Can
              Improve Data Center Energy Efficiency and the Environmental
                                 and Energy Program



                  Figure 1: Brush Grommets in the Raised Floor
                     and Blanking Panels in the Server Racks




                          Source: The Green Grid, “Fundamentals Of Data
                          Center Power And Cooling Efficiency Zones.”




      Source: SR Systems, Inc & Computer Centra.

•   Servers were not effectively placed in hot/cold aisle configurations. Three sites
    (ECC – Martinsburg, ECC – Memphis, and Ogden Campus) had at least one server rack
    aligned where the hot air from the servers blew into the cold aisle. Austin Campus
    building management commented that it rotated one server rack to ensure proper
    alignment. In addition, servers at the first three locations were not consistently placed in
    rows (i.e., some servers were placed in an ad hoc manner around the computer room).
    Figure 2 provides an illustration of a best practice hot/cold aisle configuration.




                                                                                          Page 7
                 Implementing Best Practices and Additional Controls Can
               Improve Data Center Energy Efficiency and the Environmental
                                  and Energy Program



                    Figure 2: Data Center Hot/Cold Aisle Configuration




    Source: National Institutes of Health, Center for Information Technology, Spring 2008 [Number 240].
    * CRAC – Computer Room Air Conditioning.

*   There were inconsistencies in row-to-row spacing (called pitch) of the servers in the data
    center layout at all sites visited (Austin and Ogden Campuses, ECC – Martinsburg, and
    ECC – Memphis). For example, ECC – Martinsburg’s row-to-row spacing ranged from
    7 tiles (14 ft.) to 2 tiles (4 ft.).
* There were no occupancy sensors to control lighting or sub-metering that monitored
  power consumption at the sites visited (Austin and Ogden Campuses,
  ECC – Martinsburg, and ECC – Memphis). However, the ECC – Martinsburg and
  ECC – Memphis can control their lighting with their computer systems. Best practices
  state that, generally, using occupancy sensors could save between 35 and 45 percent in
  energy consumption.
* None of the sites visited had the capability to determine how energy use is distributed
  among the computer equipment and support systems in the data center. Best practices
  state installing sub-meters at key locations provides a powerful tool for measuring the
  energy performance of individual systems. Providing these sub-meters with recording
  capability allows an agency to monitor system performance over time, providing
  evidence of degradations and improvements.




                                                                                                   Page 8
                   Implementing Best Practices and Additional Controls Can
                 Improve Data Center Energy Efficiency and the Environmental
                                    and Energy Program



   Other observations
   •   Furniture, old computer command modules, and computer and other equipment that are
       no longer used were stored in the data centers. For example, the Austin Campus data
       center had pallets of copy paper and old command modules that occupied up to an
       estimated one-third of the data center space. The Austin and Ogden Campuses’ data
       centers also contained computer equipment that needed to be discarded and/or removed.
       Unnecessary items/objects can block airflow causing the room to be inefficiently cooled.
       The items can also hinder plans to consolidate the computer rooms.
   •   The ECC – Martinsburg and the ECC – Memphis had an abundance of unused space in
       their data centers. For example, the ECC – Martinsburg has three different areas for
       servers but only one-half of the space in each area was being used. The unused space
       results in unnecessary cooling expenses which could be reduced by consolidating the
       computer rooms and/or partitioning the unused space. Also, in April 2006, an energy
       audit at the ECC – Martinsburg, performed by a contractor, determined the data center
       has 10 times the required air conditioning needed to cool the current environment. The
       audit report stated that some computer room air conditioners could be shut off and
       restarted as equipment is added, saving fan power and maintenance. The Austin Campus
       and Ogden Campus will also have an abundance of unused space once the unused
       computer and other equipment are removed from the data centers.
   •   There were occupied employee workstations (cubicles) in the data center. The
       ECC – Martinsburg had multiple occupied workstations surrounded by servers.
       ECC – Memphis had one occupied workstation in the data center.
While this audit focused largely on cooling and airflow management, IRS management indicated
that the AWSS organization is also working to improve the power conversion and distribution
systems supporting the data centers, by right-sizing and using more energy-efficient technology
in their Uninterruptible Power Supply systems.
Executive Order 13423, dated January 24, 2007, states that Federal agencies conduct their
environmental, transportation, and energy-related activities in an environmentally, economically,
and fiscally sound, continuously improving, efficient, and sustainable manner. Executive Order
13514, dated October 5, 2009, states the agency head shall consider reductions associated with
implementing best management practices for energy-efficient management of servers and
Federal data centers.
The IRS does not have policies and procedures for improving energy efficiency in the data
centers or for implementing data center energy efficiency best practices. Not fully implementing
applicable best practices or other data center improvements affects the IRS’ ability to minimize
energy consumption and costs, resulting in the inefficient use of resources and taxpayer funds
not being most effectively used. In addition, without an effective and efficient process to


                                                                                          Page 9
                        Implementing Best Practices and Additional Controls Can
                      Improve Data Center Energy Efficiency and the Environmental
                                         and Energy Program



implement best practices, the IRS may not fully comply with Executive Order 13514 to improve
the energy-efficient management of servers and Federal data centers.
Industry guidelines suggest that implementing best practices to improve airflow management can
reduce data center cooling by up to 50 percent. In addition to the previously discussed airflow
management best practices, another strategy to improve airflow management is using flexible
clear plastic barriers, such as plastic supermarket refrigeration covers, to seal the space between
the tops of the server racks and the ceiling or air return location, thereby containing heat
produced by equipment.
Fiscal Year 2009 electricity costs for the ECC – Memphis and the ECC – Martinsburg (Main and
Annex buildings) facilities were $3,060,291 and $2,057,243, respectively. The Tennessee
Valley Authority Detailed Energy Study Report, dated March 20, 2009, for the Memphis
Campus shows that 31 percent of the total electrical usage was attributed to the data center
(excluding lights and data processing). Based on the electricity costs data for the ECC –
Martinsburg and ECC – Memphis, we estimate that the IRS could potentially realize savings of
$793,218 per year and $3,172,872 over 4 years for both sites if data center best practices were
implemented at the 2 facilities. The calculations 6 of estimated potential savings do not factor in
implementation costs, since the potential cost estimates have not yet been calculated due to the
complexity and diversity of potential improvement initiatives. In addition, the potential for
energy savings is much higher because our estimates do not include the data centers at the other
nine IRS campuses, for which energy consumption information is not available. The
implementation of best practices at these additional sites could result in significant additional
cost savings to the IRS.
In addition, the Department of Energy provides an online software tool (Data Center Energy
Profiler) to help industries worldwide identify how energy is being purchased and consumed by
data center(s), and also identify potential energy and cost savings. The Data Center Energy
Profiler checklist provides a complete list of questions for developing a profile. After entering
the required information, the user is provided with a customized, printable report that shows the
details of energy purchases for the data center, how energy is consumed by the data center,
potential cost and energy savings, comparison of the data center energy utilization versus other
data centers, and a list of next steps to follow to start saving energy.
We asked IRS management at the four sites in our review to complete a Data Center Energy
Profiler case for the respective sites. Based on the information entered, the software tool
generates the Data Center Infrastructure Efficiency (DCiE) metric to indicate the current
efficiency rate and the potential estimated efficiency rate if best practices are implemented. The
DCiE metric has become a commonly used metric for data center efficiency. Figure 3 provides
the current and potential DCiE metric for the four sites visited.


6
    See Appendix IV for the calculations.
                                                                                           Page 10
                    Implementing Best Practices and Additional Controls Can
                  Improve Data Center Energy Efficiency and the Environmental
                                     and Energy Program



                            Figure 3: Potential DCiE Improvement

                                     Current Site Potential             Efficiency
                                                                                   Percentage
                   Site                Energy     Site Energy           Measure
                                                                                    Change
                                      Use-DCiE    Use- DCiE              Change

        ECC – Memphis                      0.66             0.88              0.22    33.33%
        ECC – Martinsburg                  0.71             0.90              0.19    26.76%
        Ogden Campus                       0.72             0.90              0.18    25.00%
        Austin Campus                      0.79             0.85              0.06     7.59%
       Source: Data Center Energy Profiler tool assessments completed by the IRS.

Recommendations
The Chief, AWSS, should work with the Chief Technology Officer to ensure:
Recommendation 1: Policies and procedures are established to evaluate and determine which
best practices to implement to improve data center energy efficiency.
       Management’s Response: IRS management agreed with the recommendation. The
       AWSS organization will convene a Data Center Working Group, co-chaired by the
       REFM and MITS organizations, to assess best practices to implement in IRS data centers,
       communicate best practices with campus contacts, establish methods for tracking
       progress toward implementation, and research new opportunities for improving data
       center energy efficiency.
       Office of Audit Comment: While management agreed with this recommendation and
       is planning to take several actions to improve data center energy efficiency, they are not
       comfortable with the current language used to discuss the outcome measure “Cost
       Savings – Funds Put to Better Use – Potential; $793,218 per year; $3,172,872 over a
       4-year period.” Management stated that the figure does not factor in implementation
       costs, does not take into consideration best practices already implemented, and is based
       on 50 percent energy savings, which represent the upper limit of potentially achievable
       savings.
       The potential savings calculations are based on our observations of the implementation of
       best practices and the best information available. The calculations do not factor in
       implementation costs because the cost estimates were not available. In addition, the
       potential for energy savings is much higher because our estimates do not include the data
       centers at the other nine IRS campuses, for which energy consumption information is not
       available. We believe the reported outcome measure is valid.

                                                                                                Page 11
                        Implementing Best Practices and Additional Controls Can
                      Improve Data Center Energy Efficiency and the Environmental
                                         and Energy Program



Recommendation 2: Information technology equipment energy use is measured
(i.e., sub-metered) in order to determine the energy efficiency and savings from implementing
energy improvements.
           Management’s Response: IRS management agreed with the recommendation. The
           REFM organization will identify one campus and one computing center, perform an
           analysis examining resources and engineering efforts needed for sub-metering, and
           undertake sub-metering efforts in these locations. Based on observed costs and benefits
           and any additional analysis conducted, the REFM organization will assess the feasibility
           of moving forward with sub-metering at other facilities and provide a recommendation on
           whether to move forward or not.
Recommendation 3: Employee workstations, and information technology equipment and
non-information technology equipment and furniture that are no longer needed are removed from
the data centers.
           Management’s Response: IRS management agreed with the recommendation. The
           REFM organization will consult with the Director, ECC, in the process of identifying
           information technology and non-information technology based equipment as well as
           workstations and furniture no longer needed and will develop a plan for removal, where
           appropriate.
Recommendation 4: Current and future data center space needs are identified and plans
developed to consolidate or reduce excess data center space.
           Management’s Response: IRS management agreed with the recommendation. The
           REFM organization will consult with the MITS Enterprise Operations organization,
           which will take the lead in the process of assessing the current state of data center space
           and developing a plan of action for space consolidation, where deemed appropriate.
           Through the Data Center Working Group or another venue, the MITS Enterprise
           Operations organization will develop a plan in accordance with the Office of
           Management and Budget Data Center Consolidation plan developed by the Department
           of the Treasury.
Recommendation 5: Energy audits (including an assessment of best practices) are performed
at the data centers.
           Management’s Response: IRS management agreed with the recommendation. The
           REFM organization will ensure that audits are completed timely and tracked, as required
           by the Energy Independence and Security Act (EISA) of 2007, 7 and include provisions to
           assess data centers with respect to industry best practices.



7
    Pub. L. 110-140, 121 Stat. 1492.
                                                                                               Page 12
                   Implementing Best Practices and Additional Controls Can
                 Improve Data Center Energy Efficiency and the Environmental
                                    and Energy Program



Governance Over Environmental and Energy Efficiency Projects
Should Be Enhanced
The IRS has not yet developed adequate policies and procedures for controlling and monitoring
energy efficiency improvement projects. Improvement projects (including recommendations
from environmental and energy reviews or audits) are not recorded in a central location to
facilitate efficient oversight. The Austin Campus and the ECC – Martinsburg provided
information on completed improvements. The ECC – Memphis and Ogden Campus could not
provide a list of improvements. In addition, two IRS Headquarters program owners are the only
individuals aware of all energy efficiency projects.
The IRS evaluates and implements recommendations and improvement projects on a location by
location basis rather than an enterprise-wide basis. Discussions held to evaluate and select which
recommendations and improvements to implement are not documented.
In addition to Executive Order 13423 requirements, Office of Management and Budget Circular
Number A-123, Management’s Responsibility for Internal Control dated December 21, 2004,
states that management is responsible for establishing and maintaining internal control to achieve
the objectives of effective and efficient operations, reliable financial reporting, and compliance
with applicable laws and regulations.
IRS resources could be put to better use if all recommendations and improvement projects were
considered together and selected for implementation based on the highest return on investment,
risk, and budget. However, without adequate controls to monitor and measure the benefits of
improving data center energy efficiency, the REFM organization will not have assurance that
actual costs and benefits are accurately tracked and reported, and that IRS efforts have yielded
positive and measurable results. In addition, without an effective and efficient process to
monitor energy efficiency costs and benefits, the IRS may not achieve the energy efficiency
improvements included in Executive Orders 13423 and 13514, and Treasury Directive 75-04.

Recommendations
The Chief, Agency-Wide Shared Services, should ensure that:
Recommendation 6: A governance process is established to evaluate, select, and approve
recommendations and projects to implement. The process should include a requirement to
document all recommendations and projects, whether they were selected for implementation, and
the justification for selecting or not selecting the recommendation and project.
       Management’s Response: IRS management agreed with the recommendation. The
       REFM organization will design a governance plan for evaluating and implementing
       projects, and tracking them in accordance with the corrective action in


                                                                                          Page 13
                   Implementing Best Practices and Additional Controls Can
                 Improve Data Center Energy Efficiency and the Environmental
                                    and Energy Program



       Recommendation 7. The plan will specify the individuals or board that will oversee
       energy improvement projects and will delineate project selection procedures and criteria.
Recommendation 7: A database of all recommendations and projects to improve energy
efficiency and the environment is established. For each recommendation, the database should
include information such as whether the recommendation was selected for implementation,
projected and actual cost to implement and, if applicable, implementation start and completion
dates, and projected and actual cost savings, as well as other benefits realized from the
implementation.
       Management’s Response: IRS management agreed with the recommendation. All
       energy conservation measures or improvement projects identified by a formal audit
       performed as required by the EISA will be tracked in the Department of Energy EISA
       Compliance Tracking System database, as mandated by the Act. The Compliance
       Tracking System database is projected to be available by June 2010. For projects not
       identified through a formal audit process, the REFM organization will design a Microsoft
       Excel-based tracking tool. Information to be tracked will include project listings,
       justifications for selecting or not selecting projects, start and completion dates, projected
       and actual costs, and savings or other benefits realized from implementation.




                                                                                            Page 14
                        Implementing Best Practices and Additional Controls Can
                      Improve Data Center Energy Efficiency and the Environmental
                                         and Energy Program



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective was to determine whether the REFM organization has established and
implemented an effective environmental and energy program to ensure the improvement of data
center 1 energy efficiency. To accomplish our objective, we:
I.         Determined whether the environmental and energy program to improve the energy
           efficiency at data centers within IRS facilities included adequate planning and
           coordination.
           A. Determined whether the environmental and energy program that has been developed
              and implemented is meeting the organizational goals and objectives.
           B. Researched the Internet to identify best practices used by industry to improve the
              energy efficiency of data centers and identify any relevant best practices or lessons
              learned that could be used in improving the IRS’ environmental and energy program.
           C. Identified Governmental Agency best practices that have been successfully
              implemented to reduce the energy consumption within their data centers.
           D. Reviewed audit reports from other Inspector General organizations and reports from
              the Department of Energy and the Environmental Protection Agency to identify
              recommendations and best practices that can be successfully implemented at the IRS
              data centers.
II.        Determined whether the environmental and energy program to improve the energy
           efficiency at the data centers is being effectively implemented.
           A. Discussed with REFM organization management the extent of the improvements to
              data centers and/or IRS facilities to make them energy efficient.
           B. Obtained and reviewed REFM organization reports documenting projects planned or
              in progress for each data center and/or IRS facility energy efficiency.
           C. Obtained for each Environmental Management System conforming data center and/or
              IRS facility any initial or subsequent audits performed and verified that the data
              center and/or IRS facility properly met the requirements.




1
    See Appendix VI for a glossary of terms.
                                                                                            Page 15
                  Implementing Best Practices and Additional Controls Can
                Improve Data Center Energy Efficiency and the Environmental
                                   and Energy Program



       D. Obtained for each applicable data center and/or IRS facility any environmental
          compliance, energy, or building audits performed to determine the issues identified
          that require action.
       E. Reviewed any REFM organization reports documenting for each data center and/or
          IRS facility energy efficiency projects planned or in progress.
III.   Determined whether efforts to improve energy efficiency at the data centers are being
       effectively monitored, measured, and reported.
       A. Reviewed the REFM organization action logs or other control logs (Environmental
          Management System Status Report) used to list the recommendations and corrective
          actions for energy efficiency improvements planned for each of the data centers
          and/or IRS facilities to determine whether recommendations from the different audits
          were included in the logs.
       B. Reviewed annual/quarterly reports and scorecards prepared by the REFM
          organization to report its overall status of the data center and/or IRS facility energy
          efficiency program. We verified a limited portion of the Environmental Stewardship
          Scorecard for accuracy.
       C. Reviewed the REFM organization energy efficiency action plans and the reports
          summarizing the completed or in process energy efficiency improvements to
          determine whether the improvements will increase energy efficiency at the affected
          data centers and/or IRS facilities.
          1. Based on the research performed on industry and Government best practices
             regarding data center energy efficiency, identified energy efficiency
             improvements that the IRS could consider to implement in the data centers.
          2. Performed visitations to selected IRS facilities with the following attributes:
             1) facilities with a computing or data center present (ECC – Martinsburg and
             ECC – Memphis), 2) an IRS facility that has received the most significant energy
             consumption improvements or leads in energy efficiency (Austin Campus), and
             3) an IRS facility performing large or significant computer operations (Ogden
             Campus).
          3. Applied the industry and Government best practices tools and calculated the
             potential energy savings if energy efficient improvements were directly made to
             the data centers.




                                                                                          Page 16
                  Implementing Best Practices and Additional Controls Can
                Improve Data Center Energy Efficiency and the Environmental
                                   and Energy Program



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: REFM organization’s policies and
procedures for implementing an effective environmental and energy program to ensure the
improvement of data center energy efficiency. We evaluated these controls by interviewing
management, reviewing data center best practices, reviewing policies and procedures such as the
Internal Revenue Manuals and Executive Orders, and performing site inspections of the facilities
selected for this audit.




                                                                                        Page 17
                  Implementing Best Practices and Additional Controls Can
                Improve Data Center Energy Efficiency and the Environmental
                                   and Energy Program



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Scott Macfarlane, Director
Danny Verneuille, Audit Manager
Mike Garcia, Senior Auditor
Beverly Tamanaha, Senior Auditor
Tina Wong, Senior Auditor
Ashley Guthrie, Auditor
Anthony Morrison, Program Analyst




                                                                                     Page 18
                 Implementing Best Practices and Additional Controls Can
               Improve Data Center Energy Efficiency and the Environmental
                                  and Energy Program



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Technology Officer OS:CTO
Director, Real Estate and Facilities Management OS:A:RE
Director, Stakeholder Management OS:CTO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Director, Program Oversight Office OS:CTO:SM:PO




                                                                       Page 19
                        Implementing Best Practices and Additional Controls Can
                      Improve Data Center Energy Efficiency and the Environmental
                                         and Energy Program



                                                                                 Appendix IV

                                        Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Cost Savings – Funds Put to Better Use – Potential; $793,218 per year; $3,172,872 over a
      4-year period (see page 5).

Methodology Used to Measure the Reported Benefit:
Industry guidelines suggest that implementing best practices to improve airflow management can
reduce data center 1 cooling by up to 50 percent. From the Tennessee Valley Authority energy
report, Detailed Energy Study Report, dated March 20, 2009, for the Memphis Campus, we
determined that 31 percent of the electricity cost was attributable to airflow management in the
data center. REFM organization management provided the 2009 electricity costs for
ECC – Memphis and ECC – Martinsburg. Based on the information obtained, Figure 1 provides
the estimated potential savings from implementing best practices at these two ECCs.




1
    See Appendix VI for a glossary of terms.
                                                                                          Page 20
                         Implementing Best Practices and Additional Controls Can
                       Improve Data Center Energy Efficiency and the Environmental
                                          and Energy Program



                Figure 1: Estimated Potential Savings From Implementing Best
                                Practices at Two of the ECCs

                                                                                                    Sum of the
Row                                                             Memphis Martinsburg
                                                                                                  Prior Columns
      1     Fiscal Year 2009 total electricity cost for
                                                        $3,060,291               $2,057,243          $5,117,534
            the ECC campus.
      2     Percentage of the electricity cost
            attributable to the data center
            (i.e., cooling, computer room air                       31%             31%*                  —
            conditioner fans, uninterruptible power
            supply, and batteries).
      3     Estimated Fiscal Year 2009 data center
                                                                 $948,690         $637,745           $1,586,435
            electricity cost. (Row 1 x Row 2)
      4     Potential savings based on industry
            estimate from implementing airflow                  Up to 50%        Up to 50%                —
            management best practices.
      5     Total potential annual decrease in energy
            usage by improving airflow
            management, before costs to implement                $474,345         $318,873            $793,218
            best practices. (Row 3 x Row 4)
      6     Costs to implement best practices (The
            information needed to compute the costs              Unknown          Unknown             Unknown
            was not available.)
      7     Potential 4-year decrease in energy
            usage cost before costs to implement                $1,897,380       $1,275,492          $3,172,872
            best practices. (Row 5 x 4 years)
    Source: Our calculations based on IRS utility costs; the Tennessee Valley Authority report cited previously; A
    Design Guidelines Sourcebook; 2 and “Is your data center running out of power or cooling?” 3
    * We did not have the percentage of electricity costs attributable to the ECC – Martinsburg data center; therefore,
      we used the ECC – Memphis percentage. However, the ECC – Martinsburg data center percentage may be
      higher because the ratio of office space to data center space is lower at ECC – Martinsburg.


2
 Pacific Gas and Electric Company, dated January 2006.
3
 Spears, Ed, dated May 30, 2009, Eaton Corporation, http://powerquality.eaton.com/about-us/news-
events/whitepapers/data-center-power-cooling.asp.

                                                                                                              Page 21
       Implementing Best Practices and Additional Controls Can
     Improve Data Center Energy Efficiency and the Environmental
                        and Energy Program



                                                     Appendix V

Locations of Facilities Selected to Implement
   an Environmental Management System

                 Fresno, California
                 Washington, District of Columbia
                 Atlanta, Georgia
                 Covington, Kentucky
                 Andover, Massachusetts
                 Brookhaven, New York
                 Philadelphia, Pennsylvania
                 Memphis, Tennessee
                 Austin, Texas
                 Ogden, Utah
                 Martinsburg, West Virginia




                                                            Page 22
                    Implementing Best Practices and Additional Controls Can
                  Improve Data Center Energy Efficiency and the Environmental
                                     and Energy Program



                                                                              Appendix VI

                             Glossary of Terms

Air Handlers                   A device used to condition and circulate air as part of a
                               heating, ventilating, and air-conditioning system.
Blanking Panel                 A device used to fill empty vertical spaces in the rack to
                               maintain proper airflow.
Brush Grommet                  A device used to prevent cold air from escaping through cable
                               holes in raised floor environments. By blocking bypass
                               airflow, brush grommets significantly increase the cooling
                               effectiveness of the data center because cold supply no longer
                               mixes with hot exhaust air through unsealed cable holes.
Campus                         The data processing arm of the IRS. The campuses process
                               paper and electronic submissions, correct errors, and forward
                               data to the Computing Centers for analysis and posting to
                               taxpayer accounts.
Chiller Systems                A cooling system used in a data center to remove heat from
                               one element and deposit it into another element. Chillers are
                               used to cool the water used in their heating, ventilation, and
                               air-conditioning units. Round-the-clock operation of chillers
                               is crucial to the data center, given the considerable heat
                               produced by many servers operating in close proximity to one
                               another. Without them, temperatures would quickly rise to
                               levels that would corrupt mission-critical data and destroy
                               hardware.
Data Center                    A building or portion of a building whose primary function is
                               to house a computer room and its support areas; data centers
                               typically contain high-end servers and storage products with
                               mission-critical functions.
Data Center Infrastructure     A measure used to determine the energy efficiency of a data
Efficiency                     center. The measure, which is expressed as a percentage, is
                               calculated by dividing information technology equipment
                               power by total facility power.



                                                                                       Page 23
                   Implementing Best Practices and Additional Controls Can
                 Improve Data Center Energy Efficiency and the Environmental
                                    and Energy Program



Enterprise Computing Center      Supports tax processing and information management through
                                 a data processing and telecommunications infrastructure.
Enterprise Learning Management An application that provides training, administration, and
System                         training resource management (instructors, classroom, and all
                               web resources for learning).
Rack                             An enclosed cabinet housing computer equipment.
Sub-metering (intelligent        Allows power consumption to be monitored at every level in
monitoring)                      the power distribution hierarchy, giving visibility into current
                                 operational parameters and the impact of other energy-saving
                                 steps.
Uninterruptible Power Supply     An emergency power source to provide power to data center
                                 facilities until emergency generators come on.
White Paper                      In information technology, a white paper is often a paper
                                 written by a lead product designer to explain the philosophy
                                 and operation of a product in a marketplace or technology
                                 context.




                                                                                         Page 24
      Implementing Best Practices and Additional Controls Can
    Improve Data Center Energy Efficiency and the Environmental
                       and Energy Program



                                                   Appendix VII

Management’s Response to the Draft Report




                                                           Page 25
  Implementing Best Practices and Additional Controls Can
Improve Data Center Energy Efficiency and the Environmental
                   and Energy Program




                                                       Page 26
  Implementing Best Practices and Additional Controls Can
Improve Data Center Energy Efficiency and the Environmental
                   and Energy Program




                                                       Page 27
  Implementing Best Practices and Additional Controls Can
Improve Data Center Energy Efficiency and the Environmental
                   and Energy Program




                                                       Page 28
  Implementing Best Practices and Additional Controls Can
Improve Data Center Energy Efficiency and the Environmental
                   and Energy Program




                                                       Page 29
  Implementing Best Practices and Additional Controls Can
Improve Data Center Energy Efficiency and the Environmental
                   and Energy Program




                                                       Page 30
